Report No.D-2007-035       December 14, 2006




     FY 2006 Air Force Basic Allowance
                for Housing
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
ACES                  Automated Civil Engineering System
AF                    Air Force
AFB                   Air Force Base
AFI                   Air Force Instruction
BAH                   Basic Allowance for Housing
DFAS                  Defense Finance and Accounting Service
DJMS                  Defense Joint Military Pay System
FSOs                  Financial Services Offices
HMO                   Housing Management Office
OIG                   Office of Inspector General
U.S.C.                United States Code
               Department of Defense Office of Inspector General
Report No. D2007-035                                                 December 14, 2006
  (Project No. D2006-D000FP-0025.000)

               FY 2006 Air Force Basic Allowance for Housing

                                Executive Summary

Who Should Read This Report and Why? The Assistant Secretary of the Air Force
(Financial Management and Comptroller) should read this report because it discusses and
recommends improvements to the administration and management controls over the basic
allowance for housing and recoveries of improper and erroneous payments.
Background. This report is the second in a series on military pay entitlements and
benefits. Defense Finance and Accounting Service at Denver, Colorado, manages the Air
Force financial accounts for military pay and entitlements. The Air Force processes pay
through the Defense Joint Military Pay System database, which is controlled and
maintained at Defense Finance and Accounting Service in Denver. Air Force personnel
units and Financial Services Offices at bases make entries to update data in the Defense
Joint Military Pay System. Approximately $1.7 billion in basic allowance for housing is
allocated for about 259,000 Air Force members.

Results. We performed this audit to determine whether Air Force military members were
drawing a Basic Allowance for Housing entitlement while residing in military family
housing. We also reviewed the management control program as it related to the overall
objective. We found that 104 Air Force military members had been drawing Basic
Allowance for Housing while residing in military family housing. As a result, the
Air Force spent about $947,000 on Basic Allowance for Housing for members who were
not entitled to receive it. We recommend that the Air Force recover the $947,000 in
Basic Allowance for Housing improperly expended and require base Financial Services
Offices to certify quarterly automated Basic Allowance for Housing verifications. We
also recommend that the Air Force require that all Financial Services Offices use Basic
Allowance for Housing verification software already in use at some bases. Finally, we
recommend that the Air Force provide criteria, including monetary thresholds, for
referring erroneous Basic Allowance for Housing payments to investigators and the
Service member’s chain of command, and for conducting automated verifications at base-
level Financial Services Offices. (See the Finding section of the report for the detailed
recommendations.)

We did not identify material management control weaknesses. However, we did identify
internal control weaknesses affecting the administration of the Basic Allowance for
Housing entitlement, which, although not material, are worth noting because the
entitlement affects Air Force members’ pay. The recommendation, when implemented,
will correct these internal control weaknesses. (See the Background section of the report
for the discussion of the review of internal controls.)

This report includes potential monetary benefits over the next 5 years of $5.6 million.
The potential monetary benefits include about $947,000, the amount we recommend that
Air Force recover in improperly paid Basic Allowance for Housing. Improved internal
controls would allow the Air Force to prevent additional improper payments of
$4.7 million Basic Allowance for Housing over the next 5 years.

Management Comments and Audit Response. The Air Force’s comments were
responsive but did not include completion dates for Recommendations 1.b. and 1.c. The
Air Force concurred with Recommendations 1.a, 1.b. and 1.d. The Air Force also
concurred with Recommendation 1.c. but proposed an acceptable alternative action that
meets the intent of the recommendation.

We request that the Assistant Secretary of the Air Force (Financial Management and
Comptroller) provide completion dates for proposed actions for Recommendations 1.b.
and 1.c by February 12, 2007.




                                           ii
Table of Contents

Executive Summary                                 i

Background                                       1

Objective                                        2

Review of Internal Controls                      2

Finding
     Controls Over Basic Allowance for Housing    4

Appendixes
     A.   Scope and Methodology                  10
     B.   Prior Coverage                         11
     C.   Monetary Benefits                      13
     D.   Major Command/Base Overpayments        14
     E.   Report Distribution                    16

Management Comments
     Department of the Air Force                 17
Background
    This report is the second in a series on military pay entitlements and benefits.
    The Defense Finance and Accounting Service (DFAS) at Denver, Colorado,
    manages the Air Force financial accounts for military pay and entitlements. The
    Air Force processes pay through the Defense Joint Military Pay System (DJMS),
    which is controlled and maintained by DFAS in Denver. The DJMS supports pay
    and entitlements for active duty Air Force members. The Air Force and DFAS
    jointly sponsor and own the data. The Air Force and DFAS maintain more than
    367,000 records in the pay system. The Defense Military Pay Office software is
    used to input payroll data into DJMS. Air Force personnel units and Financial
    Services Offices (FSOs) at bases also make entries to update data in DJMS. Total
    cost for Air Force active duty military personnel for the year ended September 30,
    2005, was $26.152 billion, all of which was processed through DJMS. The
    Air Force allocates approximately $1.7 billion in Basic Allowance for Housing
    (BAH) for about 259,000 Air Force members.
    Housing Management Office. The Housing Management Office (HMO) is
    responsible for preparing Air Force (AF) Form 594, Application and
    Authorization to Start, Stop, or Change BAH or Dependency Redetermination,
    which notifies the FSOs when an individual’s housing status changes. The HMO
    is also responsible for coordinating with the FSO to provide, annually, a list of
    members residing in Government-controlled military family housing in
    September.

    The HMO offers military family housing at no cost to the member. If a member
    lives in Government-controlled military family housing, they are not entitled to
    receive BAH unless they are living in a privatized housing area. (Military
    privatized housing is a public/private program whereby private sector developers
    may own, operate, maintain, improve, and assume responsibility for military
    family housing.) The Air Force pays BAH to members in military privatized
    housing. The Air Force member is then responsible for paying the military
    privatized housing contractor.

    Automated Civil Engineering System. The Air Force uses a database known as
    Automated Civil Engineering System (ACES) for housing management. The
    ACES database provides support in the day-to-day operations for Air Force civil
    engineers in managing Air Force base housing. The database is composed of six
    functional business areas including housing assignments and terminations, facility
    data, community housing, unaccompanied housing, cost of moving and storing
    household goods, and inspections. ACES is fielded at 84 installations worldwide
    and tracks about 85,000 Government-controlled housing units. Each base HMO
    owns and maintains the data for their installation.

    Financial Services Offices. The FSOs process the AF Form 594 data for entry
    into the DJMS database. The FSOs are responsible for certification of
    dependency and determination of BAH entitlements. The effective date of
    assignment to military family housing is the date the member, or his or her
    designated representative, accepts or assumes responsibility for the housing unit.



                                         1
           Annual BAH Verification. The HMO initiates the verification process by
           providing the FSO a list of military members residing in Government housing.
           The FSO then verifies the information by comparing it to a Family Quarters
           Verification list provided by the Defense Military Pay Office. The FSO further
           investigates names that match between both Government housing lists. If the
           FSO discovers that a member is living in Government quarters and
           inappropriately receiving BAH, the FSO should stop the BAH and should
           establish a debt to recover the BAH overpayments. Once the FSO has completed
           the verification, the FSO must prepare a certification and provide it to their Air
           Force Major Command. The HMO and the FSO are jointly responsible for
           confirming that members residing in military housing are not paid BAH.


           Objective
           Our overall audit objective was to determine whether Air Force military members
           are drawing a Basic Allowance for Housing entitlement while residing in military
           family housing. We also reviewed the management control program as it related
           to erroneous payment of BAH. See Appendix A for a discussion of the audit
           scope and methodology. See Appendix B for prior coverage related to the
           objectives.


           Review of Internal Controls
           DoD Directive 5010.38, “Management Control Program,” August 26, 1996, and
           DoD Instruction 5010.40, “Management Control Program Procedures,”
           August 28, 1996, 1 require DoD organizations to implement a comprehensive
           system of management controls that provides reasonable assurance that programs
           are operating as intended and to evaluate the adequacy of the controls.

           Scope of the Review of the Management Control Program. We reviewed the
           Air Force Management Control Program as it relates to FSOs and HMOs at
           Bolling Air Force Base (AFB), Langley AFB, Eglin AFB, Minot AFB, Cannon
           AFB, and Hurlburt Field. We also reviewed the Air Force annual statement of
           assurance and determined it did not disclose internal control weaknesses over
           BAH payroll entitlement. Because we did not consider administration of the
           BAH entitlement to be a material management control weakness, we concluded
           that the Air Force’s Management Control Program was adequate with respect to
           our audit objectives. We also reviewed the Management Control Program at
           DFAS Denver, including the annual statement of assurance, and concluded that it
           was adequate with respect to our audit objectives.


1
    Office of Management and Budget Circular No. A-123, “Management’s Responsibility for Internal
    Control,” December 21, 2004, provides updated internal control standards and new requirements for
    conducting management’s assessment of internal control over financial reporting. Revised OMB Circular
    No. A-123 became effective in FY 2006. Subsequently, DoD canceled DoD Instruction 5010.40 and
    issued DoD Instruction 5010.40, “Managers’ Internal Control Program Procedures,” January 4, 2006.



                                                     2
Adequacy of Management Controls. We did not identify material management
control weaknesses. However, we did identify internal control weaknesses
affecting the administration of the BAH entitlement, which, although not material,
are worth noting as the BAH entitlement affects Air Force members’ pay. The
Air Force did not implement controls to ensure that its Major Commands required
their Components, including base FSOs, to certify to the completion of their BAH
verifications on an annual basis. The Assistant Secretary of the Air Force,
Financial Management and Comptroller did not implement a recommendation in
the Air Force Audit Agency report, “Basic Allowance for Housing Procedures,”
March 20, 2002. The report recommended that FSOs automate the annual BAH
verification process. We also identified other control weaknesses including lack
of criteria for quarterly automated BAH verification, lack of criteria for referring
erroneous payment issues to the member’s chain of command and investigators,
and inconsistency between base FSOs’ procedures to verify entitlements.
Recommendation 1, when implemented, will correct these internal control
weaknesses.




                                     3
            Controls Over Basic Allowance for
            Housing
            One hundred and four Air Force military members improperly received
            BAH while residing in military family housing because the Air Force did
            not implement effective internal controls to prevent and detect erroneous
            BAH payments to them. Furthermore, the Air Force had no plan to
            recover the erroneous BAH payments. As a result, the Air Force
            erroneously paid about $947,000 on BAH to Air Force members.


Basic Allowance for Housing Criteria
     The Air Force implements section 403, title 37, United States Code, “Basic
     Allowance for Housing,” (37 U.S.C. 403) to provide BAH to Service members to
     defray the cost of quarters not provided by the Government. As such, 37 U.S.C.
     403 defines the legal limitations, including adjustments, based on the FY 2001
     National Defense Authorization Act (Public Law 106-398, October 30, 2000).
     The Financial Management Regulation implements the United States Code and
     provides policy regarding financial management and military pay.

     United States Code. As stated in 37 U.S.C. 403, the amount of BAH for a
     member is determined by the member’s pay grade, geographic location, and the
     dependency status of the member. The Secretary of Defense determines the
     housing allowance based on the cost for adequate housing rental for Service
     members in military housing areas in the United States. A Service member with
     dependents and assigned to military family housing is not entitled to BAH.

     DoD Financial Management Regulation. DoD Financial Management
     Regulation, volume 7A, chapter 26, “Basic Allowance for Housing,” October
     2005, implements the United States Code. BAH entitles members to monthly
     allowance for housing. The Financial Management Regulation authorizes this
     allowance for members with and without dependents. BAH is intended to pay
     only a portion of housing costs. BAH is payable to members on active duty and
     will vary according to the grade in which serving or appointed for basic pay
     purposes, dependency status, and the permanent duty station assigned. BAH is
     not payable to members assigned to military quarters.

     DFAS-Denver Manual 7073-1, Chapter 26. DFAS-Denver Manual 7073-1,
     “Defense Joint Military Pay System – Active Component (DJMS-AC) FSO
     Procedures,” January 15, 1998, implements the United States Code and provides
     procedures for the FSO to prevent erroneous payments of BAH. Specifically,
     chapter 26 provides procedures for an annual BAH verification. The manual
     requires the FSOs to then certify to its Major Commands that the BAH
     verification was completed.

     Air Force Instruction 32-6001. Air Force Instruction (AFI) 32-6001, Chapter
     10 entitles military personnel with dependents to BAH, except when they and
     their dependents (or their dependents only) occupy adequate Government housing


                                         4
     facilities. The Deputy Chief of Staff of the Air Force for Installations, Logistics,
     and Installation Support is primarily responsible for the Instruction. The
     Instruction provides criteria for the FSOs’ financial management of BAH.


Military Family Housing Residents Drawing Basic Allowance
  for Housing
     As of January 2006, the Air Force paid BAH to 104 Air Force military members
     while they resided in military family housing. The erroneous payments occurred
     in 29 U.S. Air Force bases within the United States. These 29 bases were under
     7 different Major Commands and 1 Direct Reporting Unit. Air Force needs to
     implement internal controls to prevent such payments. The potential monetary
     benefits the Air Force could realize include about $947,000 of funds we
     recommend the Air Force recover for improperly paid BAH, and $4.7 million for
     erroneous payments not made from 2007 to 2011 as a result of improved internal
     controls for a potential benefit of $5.6 million.


Basic Allowance for Housing Internal Controls
     The Air Force paid military members residing in military family housing BAH
     because the Air Force did not implement internal controls to prevent and detect
     erroneous BAH payments. The Air Force did not automate data comparisons
     between DJMS and ACES so that FSO personnel could use a database-related
     program for BAH verifications. The Air Force also has not required bases to
     adopt BAH verification software or report completion of automated BAH
     verifications. The Air Force did not have criteria requiring base-level FSOs to
     conduct automated software BAH verifications. In addition, the Air Force did not
     have criteria, including a monetary threshold, and procedures for referring BAH
     overpayments for investigation and to the Service member’s chain of command.

     Verification Procedures. As of June 2006, seven of the eight locations we
     visited during this audit performed the housing verification required by DFAS-
     Denver Manual 7073-1, Chapter 26. Only one of the locations effectively used an
     automated verification method. Another location used an automated method but
     applied incorrect data. Five of the locations used a manual process. The final
     location performed no verification at all. Table 1 shows the verification method
     and number of members receiving erroneous payments at each location.




                                           5
             Table 1. Method of Basic Allowance for Housing Verifications

                                  Ineffectively                   No
      Base          Automated      Automated       Manual     Verification    Errors
Hurlburt Field          X                                                        0
Minot                                   X                                       10
Langley                                               X                          2
Bolling                                               X                          1
Eglin                                                 X                          9
Wright-Patterson                                      X                          4
Andrews                                               X                          7
Cannon                                                              X           10


      The base FSOs using automated software were able to perform the verification in
      about 20 minutes. The base FSOs using manual methods required a month to
      perform their verifications by manually comparing the FSO and HMO rosters.
      The manual verifications are more time consuming and error prone than the
      automated process. Because the FSOs are primarily staffed with military
      members, periodic training on the verification is required. The uniform use of
      quarterly automated verifications throughout the Air Force would reduce the
      erroneous payments of BAH while minimizing training needs. In addition,
      because the automated verification process is more efficient, it can be done more
      frequently.

      Reporting to the Major Commands. DFAS-Denver Manual 7073-1 requires
      Major Commands to establish an internal suspense date for completion of their
      bases’ verifications and requires FSO certification upon completion of the
      verification. Major Commands did not require their FSOs to complete and certify
      the verification. The Major Commands, once notified of this requirement during
      the course of our audit, did task FSOs to comply with this reporting requirement
      and the FSOs complied.

      Overpayments Made. During FY 2006, the Air Force made erroneous payments
      of BAH to Service members at the eight locations we visited during the audit, and
      at 21 other Air Force bases in the United States. The erroneous BAH payments
      made to Air Force members totaled about $947,000. Table 2 shows the number of
      errors at each MAJCOM and the monetary amounts associated with those errors.
      Detailed information can be found in Appendix D.




                                            6
  Table 2. Basic Allowance for Housing Overpayments by Major Command
                                                               Monetary
MAJCOM (Major Command)                           Errors         Amount

ACC (Air Combat Command)                                       33             $269,163
AETC (Education & Training Command)                            26             $229,432
AMC (Air Mobility Command)                                     22             $176,302
AFMC (Air Force Material Command)                              16             $157,531
DRU (Direct Reporting Unit)                                     1              $65,684
AFSOC (Air Force Special Operations Command)                    2              $19,862
AFSPC (Air Force Space Command)                                 3              $19,396
PACAF (Pacific Air Force)                                       1               $9,293
Totals                                                        104             $946,664



Followup Actions. We provided FSO personnel at the bases with information on the
errors identified during our audit. The FSO personnel did not have adequate criteria or
instructions for actions to take when an erroneous BAH payment was identified. The
FSO personnel stated that they believed they should stop the erroneous BAH payments
and establish a receivable from the member. However, there was no absolute
requirement to refer the member receiving the erroneous payment to Air Force Office of
Special Investigations. At one Air Force Base, the FSO initially planned to stop a service
member’s BAH but only to recoup the overpayment that occurred over a 3-year period.
Because of prior experience, the Director of the FSO decided to contact the Air Force
Office of Special Investigations because of the substantial amount of the erroneous
payment involved (more than $60,000).

Investigative Referral. The FSOs currently follow DFAS Denver Manual 7073-1,
Chapter 26. According to the Air Force Accounting and Finance Office, this manual will
soon be phased out and converted to Air Force Manual 65-116. Currently, the DFAS-
Denver Manual does not state a monetary threshold or procedures for referral to
investigators that should be followed when BAH overpayments occur. Without such
guidance, significant overpayments are not promptly investigated and avoided.
Air Force Manual 65-116 should include criteria, a monetary threshold, and procedures
for referring BAH overpayments for investigation and to the Service member’s chain of
command.




                                            7
Conclusion
The Air Force made about $947,000 in erroneous payments for Basic Allowance for
Housing to 104 members. The Air Force spent this money improperly and the members
who received it were not entitled to it. The potential monetary benefits include the
$947,000 we recommend that Air Force recover in improperly paid Basic Allowance for
Housing, and $4.7 million in cost avoidance from improved internal controls over the
next 5 years totaling $5.6 million.


Recommendation, Management Comments, and Audit
  Response
       We recommend that the:

             1. Assistant Secretary of the Air Force (Financial Management and
       Comptroller) implement internal controls to prevent, detect, and recover
       erroneous Basic Allowance for Housing payments to Air Force Service
       members residing in military family housing by directing Air Force
       Financial Services Offices to:

                     a. Use an automated process to compare data between the
       Defense Joint Military Pay System and Automated Civil Engineering System
       so that Financial Services Office personnel can use a database-related
       program for Basic Allowance for Housing verifications.

       Air Force Comments. The Air Force concurred. The Assistant Secretary of the
       Air Force (Financial Management and Comptroller) has identified a systemic way
       to correct this problem and contracted Secure Data, Incorporated to produce
       reports of mismatches between the two computer systems for the Financial
       Services Offices.

       Audit Response. The Air Force comments are fully responsive. We commend
       the Air Force for acquiring a means of performing this comparative match in
       order to discover erroneous payments and to report them to Financial Services
       Offices for appropriate action.

                     b. Provide criteria to complete quarterly automated software
       Basic Allowance for Housing verifications and certify completion to the base
       Financial Services Office’s Major Command.

       Air Force Comments. The Air Force concurred. Secure Data, Incorporated will
       provide the Assistant Secretary of the Air Force (Financial Management and
       Comptroller) (Air Force Accounting and Finance Office) with quarterly mismatch
       reports for the base FSOs. The Air Force Accounting and Finance Office will
       provide the reports, and guidance requiring a notice of completion, to the Air
       Force Major Commands. Completed notices of completion will be sent from the
       Financial Services Offices to the Air Force Major Commands, and then to the Air


                                          8
Force Accounting and Finance Office. Standard instructions will be provided in
Air Force Manual 65-116, Volume 1.

Audit Response. The Air Force comments are fully responsive. Quarterly
reports from Secure Data, Incorporated, with certifications of corrective actions
sent to the Air Force Major Commands and the Air Force Accounting and
Finance Office, will assist in promptly correcting erroneous payments. We
request that the Air Force provide a completion date in management comments on
the final report.

              c. Promulgate criteria, including monetary threshold and
procedures, for referring Basic Allowance for Housing overpayments to
Service members’ chain of command and investigators.

Air Force Comments. The Air Force concurred with the intent of the
recommendation. Air Force Instruction 65-202, Chapter 7, already provides
instructions for training Financial Services Offices personnel to identify fraud.
Because fraud detection is possible in any area of the Financial Services Offices,
the Air Force does not want to limit its instructions to one specific regulation or
area of the Financial Services Offices, or to a definitive dollar amount. Therefore,
the Air Force will strengthen AFI 65-202 with examples of fraud and
recommended actions, and also provide guidance to the Financial Services
Offices on when to include a service member’s Commander, the Staff Judge
Advocate, or the Office of Special Investigation.

Audit Response. The Air Force comments are responsive. The proposed
alternative action, when implemented effectively, meets the intent of the
recommendation. We request that the Air Force provide a completion date in
management comments on the final report.

               d. Initiate collection actions to recover the amounts paid
erroneously.

Air Force Comments. The Air Force concurred. The Air Force will notify
service members of their debts, and appropriate actions will be taken once the
DoD OIG provides names and social security numbers to the Air Force.

Audit Response. The Air Force comments are fully responsive. Once the Air
Force Office of Special Investigations notifies the DoD OIG that a release of the
names and social security numbers will not interfere with current or ongoing
investigations, the DoD OIG will provide this information to the Air Force
Director of Accounting and Finance. We have already provided data on 57 out of
104 members selected for review, and we have approval to provide data on
another 34 members. We will provide the data on the final 13 members when we
receive permission.




                                     9
Appendix A. Scope and Methodology
   We examined the basic allowance for housing entitlement and the related internal
   controls. Copies of Air Force form 594 (supporting documents) in the Air Force
   Housing Management Office were audited against data in DJMS database.

   We performed this audit from November 2005 through August 2006 in
   accordance with generally accepted government auditing standards. DFAS-
   Denver and the Air Force briefed our team on the DJMS database and Air Force
   payroll operations. We examined documents maintained at Air Force Bases
   including Bolling AFB, Andrews AFB, Langley AFB, Minot AFB, Cannon AFB,
   Eglin AFB, Wright-Patterson AFB, and Hurlburt Field We interviewed FSO and
   HMO personnel at those Air Force bases. In addition, Air Force Personnel Center
   at Randolph Air Force Base briefed us on its responsibilities for providing
   personnel support to Air Force members.
   We used data mining software to compare the Air Force Housing Management
   Office database, ACES, against DJMS for Air Force members drawing BAH. We
   then examined the documentation in the Housing Management Office and the
   Financial Services Offices. Because we used data mining techniques to select
   items for examination in the audit we have not made statistical projections.

   Use of Computer-Processed Data. We did not evaluate the general and
   application controls of DJMS, the database that processes payroll data, although
   we did rely on data produced by that system to conduct the audit. We did not
   evaluate the general and application controls of ACES, the database that provides
   support in the day-to-day operations in managing Air Force base housing. We
   instead determined data reliability by comparing the data provided to us from
   DJMS and ACES to source documents. Not evaluating the controls did not affect
   the results of the audit.

   Use of Technical Assistance. The DoD OIG Quantitative Methods Division and
   the Data Mining Division assisted with the audit.

   The Quantitative Methods Division advised us that a random sample could be
   projected over the bases the sample was drawn from. The Quantitative Methods
   Division also advised that our random results in survey could be used for audit
   planning purposes. However, we used data mining to identify items for
   examination and therefore we did not statistically project results.

   The Data Mining Division trained our team and provided us with software to
   compare data and sort information. We used the software to compare BAH
   received according to payroll records against Air Force members residing in
   military housing to determine the subpopulations for review.

   Government Accountability Office High-Risk Area. The Government
   Accountability Office has identified several high-risk areas in DoD. This report
   provides coverage of the DoD Financial Management high-risk area.



                                       10
Appendix B. Prior Coverage
       During the last 5 years, the Government Accountability Office (GAO), the
       Department of Defense Inspector General (DoD IG), the Naval Audit Service, and
       Air Force Audit Agency issued 18 reports discussing military payroll or BAH.
       Unrestricted GAO reports can be accessed over the Internet at
       http://www.gao.gov. Unrestricted DoD IG reports can be accessed at
       http://www.dodig.mil/audit/reports.


GAO
       GAO-04-990T, “Army Reserve Soldiers Mobilized to Active Duty Experienced
       Significant Pay Problems,” July 20, 2004

       GAO-04-413T, “Army National Guard Personnel Mobilized to Active Duty
       Experienced Significant Pay Problems,” January 2004


DoD IG
       DoD IG Report No. D-2006-049, “Audit of the FY 2004 Marine Corps
       Entitlements and Withholding,” February 10, 2006

       DoD IG Report No. D-2005-100, “Identification and Reporting of DoD
       Erroneous Payments,” August 17, 2005


Navy
       N2005-0021, “Termination of BAH for Personnel Residing in Navy Family
       Housing at Pacific Activities,” January 6, 2005

       N2004-0076, “Termination of BAH for Personnel Residing in Navy Housing at
       Selected Activities in Washington State and California,” September 7, 2004

       N2004-0060, “Termination of BAH for Navy Personnel Residing in Government
       Family Housing at Selected District of Columbia and Maryland Activities,”
       June 17, 2004

       N2004-0035, “Termination of BAH for Navy Personnel Residing in Government
       Family Housing in Jacksonville, FL Area,” April 1, 2004

       N2004-0025, “Termination of BAH for Navy Personnel Residing in Government
       Family Housing in the New London, CT, and Newport, RI Areas,”
       February 9, 2004


                                         11
Air Force

    F2002-0090-EL0000, “Basic Allowance for Housing,” for Seymour Johnson Air
    Force Base September 9, 2002

    F2002-0004-B05400, “Basic Allowance for Housing Procedures,”
    March 20, 2002

    F2002-0021-WN0000, “Basic Allowance for Housing,” for Kirtland Air Force
    Base February 20, 2002

    F2002-0017-EM0000, “Basic Allowance for Housing,” for Keesler Air Force
    Base February 5, 2002

    F2002-0017-EA0000, “Basic Allowance for Housing Payments,” for McGuire
    Air Force Base January 9, 2002

    F2002-0007-WP0000, “Basic Allowance for Housing,” for United States Air
    Force Academy October 29, 2001

    F2002-0001-DL0000, “Basic Allowance for Housing,” for Los Angeles Air Force
    Base October 25, 2001

    F2002-0003-EO0000, “Basic Allowance for Housing,” for Minot Air Force Base
    October 10, 2001

    F2002-0001-WM0000, “Basic Allowance for Housing,” for Elmendorf Air Force
    Base October 2, 2001




                                     12
Appendix C. Monetary Benefits
Recommendation         Description of Benefits      Amount and/or type of
   Reference                                                Benefit
1                Economy and Efficiency.           Funds put to better use.
                 Avoiding payment of BAH           $5.6 million of
                 entitlement to Service members    appropriated funds for
                 residing in Government housing.   military pay.




                                      13
Appendix D. Major Command/Base
            Overpayments

   Table 3. Basic Allowance for Housing Overpayments by Major Command/Base

MAJCOM (Major Command/Base)                 Errors       Monetary Amount
ACC (Air Combat Command)
Beale Air Force Base, California               1              $36,346
Cannon Air Force Base, New Mexico             10              $76,442
Davis-Monthan Air Force Base, Arizona          2              $16,765
Holloman Air Force Base, New Mexico            2              $10,361
Langley Air Force Base, Virginia               2              $12,892
Minot Air Force Base, North Dakota            10              $61,093
Mountain Home Air Force Base, Idaho            1               $3,527
Nellis Air Force Base, Nevada                  5              $51,736
                        ACC Subtotal          33             $269,162
AETC (Education & Training
Command)
Columbus Air Force Base, Mississippi           1               $5,210
Goodfellow Air Force Base, Texas               2              $24,709
Keesler Air Force Base, Mississippi           18             $163,666
Laughlin Air Force Base, Texas                 1               $2,400
Luke Air Force Base, Arizona                   1              $16,981
Maxwell Air Force Base, Alabama                1               $6,313
Sheppard Air Force Base, Texas                 1               $3,585
Tyndall Air Force Base, Florida                1               $6,570
                        AETC Subtotal         26             $229,434
AMC (Air Mobility Command)
Andrews Air Force Base, Maryland               7              $77,663
Grand Forks Air Force Base, North Dakota       2               $7,464
MacDill Air Force Base, Florida                1              $10,612
McChord Air Force Base, Washington             4              $27,531
Pope Air Force Base, North Carolina            4              $15,690
Travis Air Force Base, California              4              $37,342
                        AMC Subtotal          22             $176,302

*Table continued on the next page.




                                       14
MAJCOM (Major Command/Base)
Continued                                 Errors   Monetary Amount
AFMC (Air Force Material Command)
Edwards Air Force Base, California           3         $30,954
Eglin Air Force Base, Florida                9          $84,740
Wright-Patterson Air Force Base, Ohio        4          $41,837
                        AFMC Subtotal       16        $157,531
DRU (Direct Reporting Unit)
Bolling Air Force Base, Washington D.C.       1        $65,684
AFSOC (Air Force Special Operations Command)
Hurlburt Field, Florida                       2        $19,862
AFSPC (Air Force Space Command)
Schriever Air Force Base, Colorado            1         $6,615
Vandenberg Air Force Base, California         2        $12,781
                        AFSPC Subtotal        3        $19,396
PACAF (Pacific Air Force)
Eielson Air Force Base, Alaska                1         $9,293
Totals                                     104        $946,664




                                   15
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Navy
Naval Inspector General

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service
   Denver

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                          16
Department of the Air Force Comments




                     17
18
Team Members
The Defense Financial Auditing Service, Office of the Deputy Inspector General
for Auditing of the Department of Defense prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Patricia March
Douglas P. Neville
Joseph A. Powell
Lusk Penn
Donovan Quimby
Brett Ward
Lisa Vega
Daniel Carlquist
Jason James
Henry Mathews
Latesha Goode
